     Department of Homeland Security

     ��������������������������


  USCIS Controls To Ensure Employers Sponsoring 

   H͈1B and L͈1 Employees Pay Applicable Border 

                   Security Fee 





OIG-14-36                             February 2014

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                                 Washington, DC 20528 / www.oig.dhs.gov


                                       
                                   February 12, 2014 
                                              
MEMORANDUM FOR:	              Don Neufeld 
                              Associate Director, Service Center Operations 
                             U.S. Citizenship and Immigration Services 
 
FROM:                        Frank W. Deffer 
                             Assistant Inspector General 
                             Office of Information Technology Audits  
 
SUBJECT:	                    USCIS Controls To Ensure Employers Sponsoring H‐1B and 
                             L‐1 Employees Pay Applicable Border Security Fee  
   
Attached for your action is our final report, USCIS Controls To Ensure Employers 
Sponsoring H‐1B and L‐1 Employees Pay Applicable Border Security Fee. We 
incorporated the formal comments from the United States Citizenship and Immigration 
Services in the final report.   
 
The report contains five recommendations aimed at improving procedures to verify 
employers pay the appropriate fees for H‐1B and L‐1 petitions. Your office generally 
concurred with all recommendations. The Office of Inspector General considers 
recommendations 2, 3, and 4 open and unresolved. As prescribed by the Department of 
Homeland Security Directive 077‐01, Follow‐Up and Resolutions for Office of Inspector 
General Report Recommendations, within 90 days of the date of this memorandum, 
please provide our office with a written response that includes your (1) agreement or 
disagreement, (2) corrective action plan, and (3) target completion date for each 
recommendation. Also, please include contact information for responsible parties and 
any other supporting documentation necessary to inform us about the current status of 
the recommendation.  
 
Based on information provided in your response to the draft report, USCIS announced 
quality‐based Performance Plan and Appraisals on October 29, 2013, for all USCIS 
employees beginning FY 2014. These actions fulfill the spirit of recommendation #5, and 
therefore, we consider recommendation #5 closed. Further, we consider 
recommendation #1 open and resolved. Once your office has fully implemented the 
recommendations, please submit a formal closeout request to us within 30 days so that 
we may close the recommendations. The request should be accompanied by evidence 
of completion of agreed‐upon corrective actions.  
 
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Please email a signed PDF copy of all responses and closeout requests to
   OIGITAuditsFollowup@oig.dhs.gov.

   Consistent with our responsibility under the Inspector General Act, we will provide
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Please call me with any questions, or your staff may contact Tuyet-Quan Thai, Director,
   at (425) 582-7861.

   Attachment




www.oig.dhs.gov                               2                                       OIG-14-36
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1


   Background ........................................................................................................................ 2


   Results of Audit ................................................................................................................... 3


              Sample Testing Showed Inaccurate Payment in Random and Judgmental
              Transactions Reviewed ........................................................................................... 3
              Improved Processes To Verify Employer Information May Reduce Uncollected
              Fees ................ ……………………………………………………………………………………………………7
              Recommendations ............................................................................................... 12
              Management Comments and OIG Analysis ......................................................... 12

   Appendixes
              Appendix A:          Objectives, Scope, and Methodology ............................................ 16

              Appendix B:          Management Comments to the Draft Report ............................... 18

              Appendix C:          Major Contributors to This Report ................................................ 21

              Appendix D:          Report Distribution ........................................................................ 22


   Abbreviations
              ACWIA                 American Competitiveness and Workforce Improvement Act
              ADIS                  Arrival Departure Information System
              CLAIMS3               Computer Linked Application Information Management System
              D&B                   Dun and Bradstreet
              DHS                   Department of Homeland Security
              DOL                   Department of Labor
              ELIS                  Electronic Immigration System
              FY                    fiscal year
              GAO                   Government Accountability Office
              ISO                   Immigration Services Officer
              OIG                   Office of Inspector General
              PCQS                  Person Centric Query System
              PL                    Public Law
              USCIS                 United States Citizenship and Immigration Services
              VIBE                  Validation Instrument for Business Enterprises




www.oig.dhs.gov                                                                                                                  OIG-14-36
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   The United States Citizenship and Immigration Services (USCIS) is one of the agencies
   within the Department of Homeland Security (DHS) that oversee lawful immigration to
   the United States. Its responsibilities include collecting, processing, and adjudicating visa
   petitions, including those submitted by employers seeking permission to employ
   foreigners temporarily as nonimmigrant workers in the United States. Section 402 of
   Public Law 111-230, as amended by Public Law 111-347, requires that employers pay a
   border security fee of up to $2,250 per petition if they have 50 or more employees in
   the United States, and if their workforce consists of 50 percent or more H-1B or L-1
   nonimmigrant workers.

   We audited USCIS’ foreign worker petition process to determine whether employers
   comply with the requirements of Public Law 111-230. Our objectives were to: 1) validate
   that the border security fees were paid when required, and 2) assess USCIS controls to
   verify that employers accurately disclosed information on the number and composition
   of their employees when petitioning for foreign workers.

   Based on our review of 203 petitions for foreign workers, we determined that
   employers typically adhered to the requirements of Public Law 111-230 and paid the fee
   when required. However, 3 percent of the random petitions and 21 percent of the
   petitions we selected judgmentally based on select characteristics contained errors that
   we believe could be prevented if USCIS made improvements to its fee collection. USCIS
   needs to implement processes to scrutinize information employers provide to ensure
   they pay the proper fees. Some Immigration Services Officers already verify information
   employers provide regarding their workforce to ensure that the proper fees are
   collected; however, this practice is inconsistent across USCIS as there is no requirement
   that officers do so. Without verification, an employer’s declaration is typically the sole
   basis for determining whether the employer is required to pay the border security fee.

   We recommend that USCIS electronically capture employer information regarding the
   number of employees for analysis and comparison. We also recommend that USCIS
   implement procedures to identify employers who pay fees inconsistently, expand the
   use of readily available resources to assess the reasonableness of employer-provided
   information, and conduct further analysis to determine whether an average of 30
   minutes is the appropriate amount of time to adjudicate H-1B and L-1 petitions. USCIS
   generally concurred with these recommendations.




www.oig.dhs.gov                                 1                                          OIG-14-36
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   Background

   Section 402 of Public Law (PL) 111-230, as amended by PL 111-347, requires that
   employers petitioning for temporary foreign workers pay a border security fee when
   they meet certain criteria. Employers who employ 50 or more employees in the United
   States, of which more than 50 percent are in an H-1B and L-1 nonimmigrant visa status
   (50/50 criterion), are subject to the fee. The H-1B visa program enables U.S. employers
   to hire foreign workers meeting specific qualifications to work in the United States. 1 The
   L-1 visa program allows multinational employers to transfer executives with specialized
   knowledge to work temporarily or to establish an affiliated office in the United States. 2

   Employers who meet the 50/50 criterion are subject to the border security fee of $2,000
   for H-1B or $2,250 for L-1 petitions. This amount is in addition to a basic petition fee of
   $325 and other fees calculated based on company size and/or type of petition. 3 The
   border security fee applies to petitions for initial employment and petitions to change
   employers filed between August 13, 2010, and October 1, 2015. The fee does not apply
   to extensions by the same employer for the same employee. USCIS collects and deposits
   the fee in the General Fund of the Treasury. According to USCIS, from September 2010
   through May 24, 2013, over $250 million in border security fees had been collected.

   To petition for a nonimmigrant foreign worker, employers complete a Petition for a
   Nonimmigrant Worker (Form I-129) and declare the number of employees working in
   the United States. 4 Employers also answer yes or no on whether: 1) they have 50 or
   more employees, and 2) 50 percent of those employees are in H-1B or L-1 nonimmigrant
   status. USCIS calculates the required border security fee based on these yes or no
   answers.



   1
     The H-1B visa classification enables companies to hire foreign workers for work in specialty occupations
   on a temporary basis. A specialty occupation is defined as one requiring theoretical and practical
   application of a body of highly specialized knowledge and the attainment of a bachelor’s degree or higher
   in the specific specialty, or its equivalent, as a minimum for entry into the occupation in the United States.
   2
     The L-1 visa classification allows a multinational employer to transfer executives, managers, or
   employees with specialized knowledge to work temporarily in the United States for a qualifying
   organization. This classification also enables a multinational company to send such employees to the
   United States to open or be employed in a new office.
   3
     Certain H-1B and L visa petitions also have to pay a $500 Fraud Prevention and Detection Fee. H-1B
   petitions may also be subject to the American Competitiveness and Workforce Improvement Act (ACWIA)
   fee based on the number of full-time equivalent employees in the United States. Employers with 25 or
   fewer employees pay $750 and employers with more than 25 pay $1,500.
   4
     Form I-129 consists of the basic petition, individual supplements relating to specific classifications, and
   the H-1B Data Collection and Filing Fee exemption supplement.


www.oig.dhs.gov                                          2                                                 OIG-14-36
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   During adjudication, USCIS Immigration Services Officers (ISOs) have access to the
   Validation Instrument for Business Enterprises (VIBE). VIBE was implemented in June
   2010 to consolidate information from a wide variety of sources into one single,
   convenient web portal containing data that can help ISOs assess a petitioner’s eligibility.
   Data in VIBE comes from Dun and Bradstreet (D&B), Department of Labor (DOL),
   Immigration and Customs Enforcement and other law enforcement agencies, and USCIS’
   Computer Linked Application Information Management System (CLAIMS3). 5 Publicly
   available data from D&B ranges from a validation of the employer’s existence to
   information on the number of employees and the employer’s financial standing. VIBE
   also contains information on whether the employer has been debarred from
   participation in the H-1B program, the number of previously filed petitions, and the
   existence of previous or ongoing investigations.

   We designed our audit to determine whether employers are following the requirements
   of PL 111-230. Our objectives were to: 1) validate that the border security fees were
   paid when required, and 2) assess USCIS controls to verify that employers accurately
   disclosed information on the number and composition of their employees when
   petitioning for foreign workers. 6


   Results of Audit

           Sample Testing Showed Inaccurate Payment in Random and Judgmental
           Transactions Reviewed

           Our review of 203 petitions revealed that employers typically adhered to the
           requirements of PL 111-230 and paid the border security fee when required.
           However, 3 percent of our random sample of petitions and 21 percent of our
           judgmental sample contained errors that we believe could be prevented if USCIS
           made improvements to its fee collection processes. 7 Currently, USCIS procedures
           do not require that ISOs verify the reasonableness of employer-declared
           information against existing internal sources. USCIS also does not capture
           electronically the number of employees or other workforce information.
           Implementing procedures to capture and validate readily available data provided

   5
     D&B is an independent service provider; CLAIMS3 is a case management application used by USCIS to
   track the adjudication of applications and petitions for immigration benefits and services except those
   related to asylum and naturalization.
   6
     While our audit focused on the border security fee, we tested whether the employer paid all applicable
   fees as some fees were paid separately while others were paid in aggregate or in a lump sum.
   7
     Using CLAIMS3 data, we selected a judgmental sample based on select characteristics, such as petitions
   for which employers had paid different fees for the same type of petition.


www.oig.dhs.gov                                        3                                              OIG-14-36
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


            by employers on their workforce could reduce the number of errors and help
            USCIS collect the correct fees.

            We tested 165 petitions selected at random from the population of approved H-
            1B and L-1 initial and change of employer petitions filed during fiscal year (FY)
            2012 where the border security fee was not paid. 8 We also tested an additional
            38 petitions chosen judgmentally based on select characteristics. Testing
            included: 1) examination of H-1B and L-1 petitions and supporting
            documentation, 2) assessment of publicly available business entity data, 3)
            review of USCIS’ Person Centric Query System (PCQS) which contains data on
            adjudicated petitions from USCIS and on approved visas from the Department of
            State, 4) analysis of international arrivals and departures data of H-1B and L-1
            employees in Custom and Border Protection’s Arrival Departure Information
            System (ADIS), and 5) assessment of the accuracy of the border security fee.
            Table 1 shows the results of our tests.

            Table 1. Results of Transaction Testing
                                     Type                                    Random          Judgmental
             Number of transactions in population                               132,061
             Amount of potential border fees                               $264,122,000
             Number of transactions tested                                          165                38
             Number of border security fee errors                                     5                 8
             Error rate in transactions tested                                    3.03%            21.05%
            Source: Office of Inspector General (OIG) review and analysis of USCIS immigration files, DHS
            systems, and Department of State data.

            The errors we identified consist of instances where employers provided incorrect
            information and as a result did not pay the border security fee. Our review of the
            case files and independent verification with D&B and other sources showed that:
            1) employers provided incorrect information and did not pay the fee, 2)
            employers paid the fees but did not check the proper box—and USCIS
            inadvertently returned the fee, or 3) OIG believed that a request for evidence
            was warranted. Table 2 provides these additional details on our testing. 9



   8
     During testing, we narrowed our random sample from a larger original sample of 361 petitions filed
   during fiscal years 2011 and 2012 to testing only 165 petitions out of 132,061 filed during fiscal year 2012.
   This is because we determined during testing that USCIS did not record the border security fee
   consistently when the law first went into effect. As a result, the error rate in the random sample we
   tested is not projectable to the population. See appendix A for additional information.
   9
     Some employers paid the fees required by PL 111-230 as part of a lump-sum payment that did not
   itemize for the various fees. Consequently, we also reviewed accuracy of other fees as appropriate. We
   identified three errors related to other fees that we did not report as part of our sample results.


www.oig.dhs.gov                                         4                                                 OIG-14-36
                                  OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security



           Table 2. Summary of Findings
             Number
                of                                          Remarks
             Petitions
               190                 Border security fee was not required or was paid when
                                   required.
                  11               Proper fees were not paid. For example:
                              •    Employers submitted multiple petitions on the same day,
                                   declaring they did not meet the criteria for paying the border
                                   security fee. Some ISOs issued a request for evidence, but
                                   others did not. USCIS recovered fees on some petitions, but not
                                   on others that we reviewed where the ISO had not sent a
                                   request for evidence.
                              •    USCIS received the proper fee, but returned it as not needed
                                   due to errors on the petition. For example, one employer
                                   submitted the border security fee but did not check the box
                                   indicating this employer had more than 50 percent H-1B and L-
                                   1 employees.
                  2                The petition contained inadequate evidence, and a request for
                                   evidence should have been issued. For example:
                              •    One employer employed more than half of its workers in H-1B
                                   or L-1 status, but declared 49 employees, one person less than
                                   needed for the fee to apply.
           Source: OIG review and analysis of USCIS immigration files, DHS systems, and Department of
           State data.

           As shown in table 2, some errors occurred despite USCIS having all of the
           information present on the Form I-129. As previously mentioned, employers are
           asked to declare the number of employees comprising their workforce.
           However, USCIS’ system does not have a field to capture this information
           electronically so that it can be compared to other information in the petition. For
           example, in one petition we reviewed, an employer submitted a border security
           fee and claimed over 150 employees in the United States on page 5 of Form
           I-129 but this same employer marked on page 17 that it did not have 50 or more
           employees in the United States. USCIS returned the fee to the employer in error.
           If USCIS had manually reviewed information provided on pages 5 and 17, USCIS
           could have issued a request for evidence to recollect the fees. ISOs who
           reviewed the files at our request agreed that this employer was subject to and
           should have paid the border security fee.

           If USCIS electronically captured the number of employees and other data
           relevant to fees, USCIS could more easily identify discrepancies. Currently, USCIS
           does not electronically record workforce information submitted by the


www.oig.dhs.gov                                      5                                              OIG-14-36
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


            employer, such as the number of employees and the composition of foreign
            workers. If this information is captured, USCIS could leverage its electronic data
            to identify employers who claim more than 50 employees on Form I-129 and
            then declare fewer than 50 employees on the supplement. USCIS could also
            perform analysis to identify employers who declare workforce data
            inconsistently over time and either issue a request for evidence or take other
            actions as necessary. Such information can help USCIS ensure the accuracy of
            border fee collections and avoid returning fees that employers accurately remit.

            As shown in table 1, 8 of 38 petitions (21 percent) we selected judgmentally did
            not include the PL 111-230 fee when they should have. A majority of these errors
            (5 of 8) were found when we determined, as a result of data mining, that
            petitions from the same employers submitted within a few days of each other
            were sometimes accompanied by the border security fee, and other times were
            not. Upon further examination, we concluded that in all instances, the employer
            had submitted petitions claiming fewer than 50 employees or less than 50
            percent of their workforce in H-1B or L-1 status. As a result of these declarations,
            the employers did not submit the border security fee. Subsequent to a USCIS
            request for evidence, the employer changed the declaration and paid the fee.
            We found that USCIS does not have a process in place to review petitions
            submitted by these employers to determine whether other petitions were also
            accompanied by erroneous fees. If USCIS could identify all petitions submitted by
            employers who paid the border fee after a request for evidence had been issued,
            USCIS could collect on these past errors, and ensure that similar errors do not
            occur in the future.

            During our testing, we also found errors in other required fees. 10 For example,
            one research organization declared itself as a government entity and therefore
            exempt from the American Competitiveness and Workforce Improvement Act
            (ACWIA) fee. This entity was actually a private research organization that was
            subject to the ACWIA fee of $1,500 per petition. 11 Between August 13, 2010, and
            October 1, 2014, USCIS did not collect over $67,000 in ACWIA fees for 45
            petitions. Since FY 2007, USCIS did not collect from this entity at least $200,000
            in ACWIA fees for 144 petitions.


   10
      As discussed previously, during the period covered by our audit, some employers submitted payments
   for the PL 111-230 fee separately while others paid all applicable I-129 fees in a lump sum. In order for us
   to test the validity of PL 111-230 fees, we also have to determine whether other applicable fees were
   paid.
   11
      Some entities such as certain nonprofit organizations and institutes of higher education are exempt
   from the ACWIA fee. However, this entity declared thousands of employees on the Form I-129 and should
   have paid $1,500 per petition.


www.oig.dhs.gov                                         6                                                OIG-14-36
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



           Improved Processes To Verify Employer Information May Reduce Uncollected
           Fees

           USCIS can improve its processes to validate information employers provide to
           ensure they pay the proper fees. USCIS has implemented a web-based system
           containing extensive workforce information, but does not require ISOs to use
           this system to determine whether the proper fee has been paid. Some ISOs and
           their managers cited regulations and time pressure as barriers that prevented
           them from undertaking more extensive validation of employer data. Without
           validation, an employer’s self-declaration is typically the sole basis for
           determining whether an employer is required to pay the border security fee.

           Independent Verification of Border Security Fees

           Current USCIS procedures require that intake technicians and ISOs verify that the
           fee the employer remits matches the employer-provided responses to questions
           on the petition regarding the size and composition of the employer’s workforce.
           However, USCIS procedures do not require ISOs to go further in their reviews
           and use other data sources, both external and internal, to determine whether an
           employer is required to pay the border security fee. Of the 14 ISOs we
           interviewed, only one reported leveraging this information in reviewing the
           petition.

           The USCIS intake process involves an operator manually entering the data from
           Form I-129 into USCIS’ processing system. The Form I-129 petition contains
           questions about whether: 1) the employer employs more than 50 employees,
           and 2) the workforce consists of 50 percent or more individuals in H-1B and L
           status. As part of the data entry process, the operator verifies that the fee the
           employer submits matches the fees calculated by the system. Petitions and
           excess fees may be returned to the sender if the amount paid does not agree
           with the amount required, as a result of the employers’ answers to the two
           questions. During the adjudication process, ISOs once again compare the
           information on the Form I-129 petition with the remittance to ensure the
           submitted fee is consistent with what the employer declared. Figure 1 depicts
           the general process for collecting and reviewing employer petitions and fees.




www.oig.dhs.gov                                 7                                        OIG-14-36
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Figure 1. General Process for Collecting and Reviewing H-1B and L-1 Petitions
           and Fees




           Source: DHS analysis of agency procedures.

           As shown in figure 1, ISOs access VIBE during adjudication to help determine the
           petitioner’s eligibility. VIBE contains information on the employer’s financial
           viability, the number of employees, the number of previously filed Form I-129
           petitions, and whether the employer had been debarred by DOL from
           participation in the nonimmigrant worker program. 12 However, USCIS does not
           require that ISOs use information in VIBE to validate employer information
           related to fees. The ISOs and managers we interviewed generally agreed that



   12
     Debarment is the responsibility of DOL. If an employer is debarred, USCIS cannot approve an employer’s
   immigrant and nonimmigrant worker petitions.


www.oig.dhs.gov                                         8                                            OIG-14-36
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           VIBE contains valuable information, but said that using VIBE to verify all
           information provided by an employer can be time consuming.

           Generally, USCIS procedures focus on the use of VIBE for adjudication decisions.
           To adjudicate a Form I-129 petition, ISOs use VIBE to determine whether the
           petitioner had been debarred or committed fraud and to assess an employer’s
           financial viability. An ISO is instructed to take actions if VIBE indicates that
           financial viability is in question; for example, the employer does not exist or is
           not active. In these instances, ISOs must review the VIBE finding against
           information already provided in the case file and/or issue a request for evidence
           to give the petitioner an opportunity to rebut information in VIBE. However,
           USCIS officials warn ISOs to use the data in VIBE judiciously when reviewing the
           number of employees and previously filed petitions.

           VIBE contains two pieces of information that could be compared against the
           employer’ declaration to help an ISO assess whether the employer submitted the
           proper fees: the number of employees and the number of previously filed Form
           I-129 petitions. According to ISOs and managers, because they are not required
           to do so, few ISOs regularly rely on VIBE to help assess the accuracy of the
           border security fee.

           One ISO who regularly leverages VIBE information stated that he uses VIBE as a
           reasonableness check to validate that proper fees are paid. That ISO typically:

           •	 Compares the number of employees on Form I-129 to D&B-provided data;
           •	 If the number of employees is close to or over 50, performs a reasonableness
              check of fees;
              o	 Checks in VIBE to determine how many petitions the employers had
                  submitted in the previous 12−36 months;
              o	 Determines the reasonableness between the number of employees
                  declared on Form I-129 and the number of previously filed petitions;
              o	 Factors in other considerations, including the fact that not all petitions
                  are approved, and not all approved petitions resulted in employees being
                  on board; and
           •	 Issues a request for evidence after consideration of all these factors if it
              appears the fee submitted is questionable.

           According to this ISO, in a number of instances, the employer subsequently
           submitted the border security fee when questioned about the number of
           workers and composition of workforce.




www.oig.dhs.gov                                 9	                                       OIG-14-36
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           For example, one case file we reviewed showed that an ISO issued a request for
           evidence to an employer who submitted 72 petitions in the previous 12 months
           but declared only 39 employees. Subsequently, the company paid the border
           security fee. In contrast, requests for evidence were not issued to companies
           that declared 49 employees, yet submitted as many as 111 petitions in the
           previous 12 months. ISOs we talked to cited a number of reasons why a request
           for evidence may not have been issued. Specifically, ISOs told us that although
           they can identify the number of previously approved petitions in VIBE, it is
           difficult to determine whether: 1) the individual came to the United States and
           took the position, and 2) the employee is still working for that employer. These
           same ISOs told us that this would require assessing a number of other systems,
           and there generally was not enough time during the course of adjudication to do
           so. A few ISOs said that they probably would have issued a request for evidence
           in this situation requiring the employer certify that the numbers were accurate
           and that the fees were not required. However, with no procedural requirement
           to validate information related to fees, ISOs generally take the information
           employers provide regarding the number of employees and composition of their
           workforce at face value and do not question the information further.

           The ISO who regularly leverages VIBE information related to fees informed us
           that this process is time consuming and involves juggling a number of facts that
           can be conflicting at times. Other ISOs and managers told us that because of the
           extra time involved, most ISOs adhered to existing procedures, which do not
           require validation of fees using the data in VIBE. Without fully leveraging
           available tools, while accepting employer supplied information without
           verification, USCIS may lose the opportunity to identify and collect fees from
           employers who underreport the number or type of employees to avoid paying
           the proper fee.

           Preponderance of Evidence Standards and Time Pressures Limit the Use of
           External Data

           USCIS procedures require that ISOs use the “preponderance of evidence”
           standard in adjudicating petitions. USCIS officials we interviewed defined a
           preponderance of evidence as 51 percent confidence (or more likely than not)
           that the information in the case file is reliable. Most ISOs we spoke to said they
           generally relied on their adjudication experience when applying the
           preponderance of evidence standard. In addition, time pressures set by USCIS
           performance measures to adjudicate quickly and USCIS’ own procedures, which
           require that ISOs validate specific information generally, restrict ISOs’ ability to
           fully leverage external data. As a result, according to USCIS officials, ISOs



www.oig.dhs.gov                                 10                                         OIG-14-36
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           generally follow procedures and verify the required information, which does not
           include independent verification that the proper fees were paid.

           According to the Adjudicator’s Field Manual, petitioners must establish that they
           are eligible for the benefit(s) sought. ISOs are required to use the
           “preponderance of the evidence” standard of proof when making adjudicative
           decisions. The Adjudicator’s Field Manual states that even if the ISO has some
           doubt, the petitioner will have satisfied the standard of proof if the petitioner
           submits relevant, probative, and credible evidence that leads the ISO to believe
           that the claim is “probably true” or “more likely than not.” Most ISOs we spoke
           to said they rely on their adjudication experience. Some ISOs and their managers
           said that they believe the preponderance of evidence standard limits how much
           external data ISOs may use in making decisions.

           However, past evidence of fraud in the foreign worker program indicates a need
           for validation of data the employer provides. Office of Management and Budget
           Circular A-123 states that Federal managers must assess risks in a program and
           carefully consider the appropriate balance between controls and risk. Past
           Government Accountability Office (GAO) and OIG audits, and USCIS’ own Benefit
           Fraud Assessment Reports have identified extensive fraud in the H-1B and L-1
           programs. 13 Without leveraging external data, ISOs will be hampered in their
           ability to identify inaccuracies in data provided by the petitioner with respect to
           fees and other information.

           The extent an ISO can use external data is also hindered by the amount of time
           ISOs have, only 30 minutes in general, to complete each petition. 14 To make a
           decision, they have to process and verify an extensive amount of data in the
           petition to determine whether: 1) the employer exists, 2) a qualifying position
           exists, 3) a genuine employer-employee relationship exists or will exist for H-1B
           employees or a qualifying relationship with the foreign employer for L-1
           employees, and 4) the employee qualifies for the position offered. Some ISOs
           feel that they do not have the time to spend on independently verifying the
           accuracy of all employer-provided data.




   13
      DHS OIG, The Effects of USCIS Adjudication Procedures and Policies on Fraud Detection by Immigration 

   Services Officers, (OIG-12-24), January 2012.

   GAO, Immigration Benefits- Additional Controls and a Sanctions Strategy Could Enhance DHS’s Ability to

   Control Benefit Fraud, (GAO-06-259), March 2006.

   14
      Specifically, ISOs at one service center told us they have to adjudicate 1.7 new H-1B petitions or 2.2

   renewals in one hour.



www.oig.dhs.gov                                        11                                               OIG-14-36
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendations

           We recommend that the Associate Director, Service Center Operations:

           Recommendation #1:

           Develop a method to capture electronically employers’ information related to
           the number of employees and composition of their workforce to facilitate USCIS
           data analysis in comparing employer information from one petition to another.

           Recommendation #2:

           Implement procedures to compare the number of employees listed on Form
           I-129 against employer responses regarding their workforce.

           Recommendation #3:

           Perform periodic reviews to identify employers who submit different fees for the
           same type of petitions.

           Recommendation #4:

           Expand the use of data in VIBE to assess the reasonableness of employer-
           declared data on the number and composition of employees.

           Recommendation #5:

           Conduct an analysis to determine the appropriate amount of time needed to
           adjudicate H-1B and L-1 petitions to include verification of submitted fees.

           Management Comments and OIG Analysis

           We obtained written comments on a draft of this report from the Acting Deputy
           Director of USCIS. We have included a copy of the comments in their entirety in
           appendix B. We also obtained technical comments to the draft report, which we
           incorporated into the final report, where appropriate.

           USCIS generally agreed with our recommendations and acknowledged that the
           draft report identified measures which USCIS can take to further enhance the
           program’s overall effectiveness. Specifically, USCIS concurred with four of five
           recommendations and had incorporated changes, subsequent to our audit field
           work, that fulfills the intent of the remaining recommendation. A summary and


www.oig.dhs.gov                               12                                       OIG-14-36
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           response to each recommendation follows. USCIS also cited case law to show,
           except where a different standard is specified by law, a petitioner or applicant in
           administrative immigration proceedings must prove by a preponderance of
           evidence that he or she is eligible for the benefit sought. USCIS further stated
           that the law governing the fees associated with H-1B and L-1 petitions does not
           set a higher standard of proof, and therefore, preponderance of evidence is the
           appropriate legal standard. However, as stated in this report, USCIS does not
           have procedures that require ISOs validate that proper fees were paid during
           adjudication. Past evidence of fraud in the foreign worker program confirms the
           need to validate the information employers provide. Without validation, an
           employer’s self-declaration is typically the sole basis for determining whether an
           employer is required to pay the border security fee.

           USCIS Comments to Recommendation #1: USCIS concurs with this
           recommendation. USCIS plans to begin gathering data regarding visa
           requirements for inclusion of certain Form I-129 nonimmigrant classifications in
           its Electronic Immigration System (ELIS) in late 2015. Once implemented, each
           data field on the Form I-129 will be captured electronically when an employer
           files a petition through ELIS. In the interim, USCIS will begin the process of
           modifying CLAIMS3 to capture the number of employees reported by the
           petitioner on Form I-129. USCIS expects this process to be completed by the end
           of FY 2014.

           OIG Analysis: The actions USCIS proposes satisfy the intent of the
           recommendation. PL 111-230 is scheduled to sunset October 1, 2015. However,
           once USCIS captures the number of employees electronically, USCIS can use the
           information to validate the reasonableness of other fees. Specifically, USCIS
           could further enhance its program effectiveness by using the electronically
           captured information to verify that the ACWIA fee is reasonable since this fee is
           also based on number of employees and employer declarations. This
           recommendation is considered resolved, but will remain open until USCIS
           provides documentation that the planned corrective actions are completed.

           USCIS Comments to Recommendation #2: USCIS concurred with this
           recommendation. USCIS will develop a procedure for comparing employer
           responses on the Form I-129 and information provided in the appropriate
           supplements. USCIS will provide further details on developing and implementing
           this procedure in its corrective action plan.

           OIG Analysis: The actions USCIS proposes should resolve this recommendation.
           However, more detail of the implementation timeline and procedures are
           necessary. This recommendation will remain open and unresolved until we have


www.oig.dhs.gov                                13                                        OIG-14-36
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           more information on the corrective action plan and documentation confirming
           implementation of this procedure.

           USCIS Comments to Recommendation #3: USCIS concurred with this
           recommendation. USCIS will develop a process for utilizing the comment feature
           in VIBE so that an ISO can flag an employer who initially indicates that it is not
           subject to the additional fee in PL 111-230, but later submits the fee in response
           to a Request for Evidence. The additional information will assist ISOs when
           assessing the employee attestations on subsequent H-1B and L-1 petitions.
           Although USCIS already has a quality assurance review process for H-1B and L1
           petitions that check that the petitioner paid the appropriate fees, USCIS will
           evaluate whether additional lines of inquiry on fee payment, particularly the PL
           111-230 fee, need to be included in its quality assurance review process.

           OIG Analysis: The actions USCIS proposes should resolve this recommendation.
           However, a detailed corrective action plan and timeline are necessary. This
           recommendation will remain open and unresolved until USCIS provides a
           corrective action plan, timeline, and documentation confirming that a process
           has been developed to share comments about the employer; or that other
           quality assurance review procedures have been implemented to identify
           employers paying different fees for the same type of petitions.

           USCIS Comments to Recommendation #4: USCIS concurred with this
           recommendation. USCIS noted that the employee counts in VIBE are not always
           representative of the employees a petitioner should count in determining
           whether the employer is required to pay the PL 111-230 fee. However, USCIS
           agreed that the information in VIBE regarding the number of Form I-129 H-1B
           and L-1 petitions that an employer had filed over a certain period of time can be
           compared with the employee data reported on Form I-129. USCIS will develop
           guidance to require ISOs to compare the data on approved petitions to the
           employee count on the form. ISOs will be instructed to issue a request for
           evidence in cases where there is a significant discrepancy between the
           information reported on the petition and the approval data tracked in VIBE.

           OIG Analysis: The actions USCIS proposes should resolve this recommendation.
           This recommendation will remain open and unresolved until USCIS provides a
           corrective action plan with a timeline and USCIS provides OIG evidence that
           procedures have been developed and implemented.

           USCIS Comments to Recommendation #5: USCIS did not concur with this
           recommendation. In FY 2014, USCIS developed new Performance Plan and
           Appraisal templates that no longer contain production metrics for individual


www.oig.dhs.gov                                14                                         OIG-14-36
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           employees. Specifically, on October 29, 2013, the USCIS Director announced the
           new Performance Plan and Appraisals as part of the Quality Workplace Initiative,
           highlighting the removal of quantitative metrics and reinforcing the goal for
           Performance Plan and Appraisals to be “focused on the quality of our work,
           centered on our mission, and designed to foster teamwork and collaboration.”
           USCIS has issued the revised Performance Plan and Appraisals to its ISOs for the
           current rating period. Given this change in Performance Plan and Appraisals,
           USCIS requests that the OIG close recommendation #5.

           OIG Analysis: On October 29, 2013, USCIS announced their new Performance
           Plan and Appraisals as part of their Quality Workplace Initiative highlighting the
           removal of quantitative metrics. The new focus is on quality of work, mission,
           and teamwork and collaboration for all USCIS employees beginning FY 2014. The
           performance initiative satisfies the intent of recommendation #5. OIG considers
           recommendation #5 resolved and closed.




www.oig.dhs.gov                                15                                       OIG-14-36
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   This audit was initiated as part of OIG’s 2013 Annual Performance Plan. We designed
   our audit to: 1) validate that the border security fees were paid when required, and 2)
   assess USCIS controls to verify that employers accurately disclose information on the
   composition of their workforce when petitioning for H-1B or L-1 workers. We
   interviewed USCIS officials from Service Center Operations, and the California and
   Vermont Service Centers, regarding the receipt and adjudication process related to
   Form I-129. We reviewed relevant criteria, policies, and procedures and conducted a
   walkthrough of the Form I-129 petition process for H-1B and L-1 status visas.

   We selected from CLAIMS3 a statistical sample of 361 transactions using a 95 percent
   confidence level with a +/- 2 percent expected deviation rate from a population of
   298,071 approved H-1B and L-1 initial and change of employer petitions with no border
   security fee. During testing, we found that USCIS did not consistently capture border
   security fees in CLAIMS3 during the first year the fee was implemented. Instead, USCIS
   used spreadsheets and other means of recording this information outside CLAIMS3.
   Consequently, the statistical sample of 361 contained instances where the fee was
   collected but not recorded. Subsequently, we restructured our original sample to
   exclude from our population all transactions from August 14, 2010, through FY 2011 to
   account for this anomaly. As a result, we narrowed our testing to a sample of 165 FY
   2012 transactions (out of a population of 132,061 transactions with a potential unpaid
   fee of over $260 million). In addition, we tested 38 transactions we selected based on
   specific characteristics. Because USCIS did not consistently capture the border security
   fee, the sample error rate of 3.03 percent cannot be projected to the entire
   population. 15

   We tested our transactions by comparing employer-declared information with publicly
   available business profile sites as well as the ADIS and USCIS’ PCQS containing visa

   15
     USCIS could have collected an additional $7.6 million in uncollected fees if we project the sample results
   based on 361 transactions and the population of 298,071 approved H-1B and L-1 initial and change of
   employer petitions filed from August 14, 2010, through FY 2012. The rate of uncollected fees would likely
   be higher had USCIS used CLAIMS3 to document remittance of the border fees from the date the fees
   were enacted.


www.oig.dhs.gov                                        16                                                OIG-14-36
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   information from the Department of State. Petitions failed our validity test because: 1)
   the employer did not pay the proper fee, or 2) USCIS and OIG disagreed on whether a
   request for evidence should have been issued asking for evidence that the proper fee
   was paid.

   We conducted this performance audit between March 2013 and September 2013
   pursuant to the Inspector General Act of 1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objectives.

   We appreciate the cooperation by USCIS management and staff in providing the
   information and access necessary to accomplish this review.




www.oig.dhs.gov                               17                                        OIG-14-36
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report
                                                                                         U.S. Depa rtme nt o f Homela nd Sec:urt ty
                                                                                         U.S. Citizenship and lmmigrn tion SeMces
                                                                                         Office ofth e Deputy Director (MS 2000)
                                                                                         Washington. DC 20529-2000
                                                                                         U.S. Citizenship
                                                                                         and Immigration
                                                                                         Services


                   Memorandum
                   TO:            Frank Deffer
                                  Assistant inspector General, Office of Information Technology Audits

                   FROM:          Rendell L. J ones   ~~
                                  Acting Deputy Director

                  SUBJECT:        Office of Inspector General Draft Report: USCJS Controls to Ensure Employers
                                  Sponsoring H - 1Band L-1 Employees Pay Applicable Border S ecurity Fee
                                  (OJG-13-082-JTA-USCJS) - FOUO

                  U.S. Citizenship and Immigration Services (USCJS) thanks the Office of Inspector General
                  (OIG) for the opportunity to review an d commen t on its draft report on businesses paying
                  applicable border security fees.

                  Determining whether an employer is s ubject to the additional fee mandated by Public Law (Pub.
                  L.) I I I -230 can b e complex, as an employer must account for all employees currently in the
                  United States at the time of filing the specific H - 18 or L-1 petition. According to the draft
                  r eport, the OIG found that em p loyers typically paid appropriate border fees as required b y Pub.
                  L. I 11- 230. T h e draft report identifies measures which USCIS can take to further enhance the
                  program's overall effectiveness. USCIS generally concurs with these recommendations.

                  Recommendation 1: Develop a method to capture electronically employers' information
                  related to the number of employees and composition of their workforce to facil itate USC IS data
                  analysis in comparing employer information from one petition to another.

                  USCIS response: USCIS concu rs w ith this recommendation. USCJS plans to begin gathering
                  data regarding visa requirements for inclusion of certain Form I-129 nonimmigrant
                  classifications in our E lectronic Immigration System (ELlS) in late 2015. Once implemented,
                  each data field on the Form I- 129 w ill be captured electronically when an employer fi les a
                  petition through ELlS. In the interim, USCIS will begin the process of modifying the C omputer
                  Linked Application Informatio n Management System 3 to capture the number of employees
                  reported b y the petitioner on Form 1- 129. USC IS expects this process to be completed b y the
                  end of Fiscal Year (FY) 201 4.

                  Recommendation 2 : Implement procedur es to compare th e number of employees listed on
                  Form l- 129 against employer responses regarding their workforce.




                                                                                                              www. uscls.gov




www.oig.dhs.gov                                        18                                                         OIG-14-36
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security



              Office of Inspector General Draft Report: USC IS Controls to Ensure Employers Sponsoring
              H-1 8 and L- 1 Employees Pay Applicable Border Security Fee (OIG-13-082-ITA-USCIS) -
              FOUO
              Page2

              USCIS t-esponse: USeiS concurs with this recommendation. USelS will develop a procedure
              for comparing e mployer responses on the Fonn 1- 129 and ittfonnation provided in the
              appropriate supplements. users will provide further details on developing and implementing
              this procedure in its corrective action plan.

              Recommendation 3: Perfom1 periodic follow-up reviews to identify employers who submit
              different fees for the same type of petition.

              USC! I'CSponse: use rs concurs with this recommendation. sers will develop a process for
              utilizing the conunent feature in the Validation Instmment for Bus iness Enterprises (V IBE) so
              that an Immigration Service omeer (ISO) can nag an employer who initially indicates that it is
              not subject to the additional fee in Pub. L. 111-230, but later submits the fee in response to a
              Request for Evidence (RFE). The additional infonnation will assist ISOs when assessing the
              employee attestations on subsequent H-1 Band L- 1 petitions.

              In addition, the Service Center Operations Directorate conducts regular Quality Assurance (QA)
              reviews on H- 18 , L-IA and L-1 8 petitions. A QA review for H- 1B petitions began on October
              I, 2013, and concluded on December 3 1, 20 13, and the next QA review on 11- 18 petitions is
              curre ntly scheduled for October I, 2014, through December 3 1, 20 14. Tite next QA review for
              L-1 A and L-1 B petitions is scheduled fo r ~·l ay I, 2014. th rough July 3 1, 201 4. Although QA
              officers already check to ensure that the petitioner paid all appropriate fees (including the fee
              mandated by Pub. L. 111-230), USC IS will evaluate whether addit ional lines of inquiry on fee
              payment, partic ularly the Pub. L. 111 -230 fee, need to be included during the QA process.

              Recommendation 4: Expand the use of data in VIBE to assess the reasonableness of employer-
              declared data on the number <md composition of their employees.

              USCIS I'CSponse: use rs concurs with this recommendation. It should be noted that the
              employee count provided in VffiE does not necessarily reflect the number of employees a
              petitioner should count whe n detennining whether it is required to pay the additional fee, as it
              may include employee counts for additional related entities. 11tis is especially tme in instances
              where a specific U.S. employer is a branch of a larger foreign corporation. ln those cases, VIBE
              may display an employee count that includes employees in other countries.

              However, inf omtation in VIBE regarding the number of approved Fonn 1- 129 1-1- 1Band L-1
              petitions that an employer has filed over a certain period of time can be compared with the
              employee data reported by the empl oyer on Fonn I-129. USC IS will develop gu idance to require
              ISOs to compare tlte data on approved petitions to the employee count on the fonn. ISOs wi ll be
              in stmcted to issue an RF E in cases where there is a significant discre pancy between the
              infonnation reported on the petition and the approval data tracked in VIBE.

              Recommendiltion 5: Conduct an analysis to detennine the appropriate amount of time needed
              to adj udicate H-1 Band L-1 petitions to include verifica tion of submitted fees.




www.oig.dhs.gov                                             19                                                    OIG-14-36
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security



              Office of Inspector General Draft Report: USC IS Controls to Ensure Employers Sponsoring
              H-1 8 and L- 1 Employees Pay Applicable Border Security Fee (OIG- 13-082-ITA-USCIS) -
              FOUO
              Page3

              USCIS t-esponse: USe rs does not concur with this recommendation. Tltis recommendation is
              based on interviews with ISOs in which they stated they were held to specific production
              metrics. However. for FY 20 r4. USerS developed new Perfom1ru1ce Plan ru1d Appraisal (PPA)
              templates that no longer contain productionmetrics for individual employees. l11is negates the
              need to conduct an analysis to detem1ine the appropriate ru11ount of time needed to adjudicate H-
              r B and L-r petitions.

              On October22, 20 13, users and American Federation of Government Employees (the
              designated representative of all bargaining unit employees at serS) s igned a Memorandum of
              Agr eement outlin ing the implementation of qtk1lity-based PPAs for all USers employees during
              FY 20 14 ru1d beyond. On October 29, 20 13, the USe rs Director announced the new PPAs as
              part of the Quality Workplace Initiative, highlighting the removal of quantitative metrics and
              reinforcing the goal for PPAs to be " focused on the quality of our work, centered on our m ission,
              and designed to foster teamwork and collaboration."' SeJS has issued the revised PPAs to its
              ISOs for the current rating period.

              Given this chru1ge in PPAs, SeiS respectfully requests that the OIG either remove
              Recommendation 5 from the audit report or consider it closed because of the actions taken by
              u s e rs.

                  Use of the Pt·eponder:mce of E'•idence Stand:ll'd

              In the draft report, the O!G notes that "USeJS procedures (emphasis added) generally require
              that ISOs use the " preponderance of evidence" stru1dard in adjudicating petitions." It should be
              noted that except where a different standard is specified by law, a petitioner or applicant in
              administrative immigration proceedings must prove by a preponderance of evide nce that he or
              she is eligible for the benefit sought. Sec, e.g., Matter o f ehawathe, 25 !& r Dec. 369 (AAO
              20 10); see also, Matter of Martinez, 2 1 !&1 Dec. 1035, 1036 (BIA 1997) (noting that the
              petitioner must prove eligibility by a preponderance of evidence in visa petit ion proceedings);
              Mat1er of Soo Hoo, II l&N Dec. 151 , 152 (B!A 1965) (find ing that the petitioner had not
              established eli gibil ity by a preponderance of t he evidence because the submitted evidence was
              not credible); cf. Matter of Patel, r 9 I& Dec. 774,782-3 (BIA 1988) (noting that section
              204(aX2XA) of the Act, 8 U.S.e . § 1154(a)(2XA) (Supp. IV 1986), requires a higher standard of
              clear and convincing evidence to re but the presumption of a fraudulent prior marriage).

              11tc law governing the fees associated with I-1-18 and L-r petitions docs not set a higher standard
              of proo f and therefore prcpondcrru1ce of t he evidence is the appropriate legal standard.




www.oig.dhs.gov                                               20                                                    OIG-14-36
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Tuyet-Quan Thai, Director
   Beverly Burke, Forensic Audit Manager
   Josh Wilshere, Forensic Auditor




www.oig.dhs.gov                            21                   OIG-14-36
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   U.S Citizenship and Immigration Services

   Acting Director
   Acting Chief of Staff
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  22                        OIG-14-36
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security
       Office of Inspector General, Mail Stop 0305
       Attention: Office of Investigations Hotline
       245 Murray Drive, SW
       Washington, DC 20528-0305

You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
